THE COMMONWEALTH OF MASSACHUSETTS
OFFICE OF THE ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108

MAURA HEALEY
ATTORNEY GENERAL

(617) 727-2200
(617) 727-4765 TTY
www.mass.gov/ago

November 13, 2020

VIA ELECTRONIC FILING
Hon. Scott. S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington DC 20543-0001
Re : James Anthony Martin v. Massachusetts, No. 20-6050
Dear Clerk Harris:
The Respondent has been asked by the Court to file a brief in response to the petition for
certiorari by December 2, 2020. Pursuant to Supreme Court Rules 15.3 , 30.2, and 30.4, I
respectfully request that the Respondent's deadline be extended by sixty days, to February 1,
2021. My request is based on the nature of the matter, the need for thorough review within the
Massachusetts Attorney General 's Office, and the extent of my own professional commitments.
Counsel for the Petitioner has consented to the extension.
The underlying state-court proceedings were not handled by me or by anyone in my
office, but by a district attorney's office. Thus, becoming acquainted with all aspects of the
proceedings will require a significant amount of time. Moreover, a Court-requested brief in
response to a certiorari petition is rightfully given close scrutiny in my office. The brief in this
case will be subjected to multiple rounds of thorough evaluation and revision by various
attorneys at different levels. And while I will give this matter top priority, I am also responsible
for handling a number of other matters, including federal habeas corpus actions with upcoming
deadlines.
For the foregoing reasons, a sixty-day extension will enable my office to provide the
Court with more thorough and helpful briefing. It will not prejudice any party. On behalf of the
Respondent, I request that such an extension be allowed.
Thank you very much.

Very truly yours,

tl ty

Anna E. Lumelsky
Assistant Attorney General
Appeals Division, Criminal Bureau
(617) 963-2334
anna.lumelsky@mass.gov
Counsel of Record for the Respondent,
the Commonwealth of Massachusetts

CERTIFICATE OF SERVICE
Pursuant to the Supreme Court's April 15, 2020 Order and agreement of the parties, 1
hereby certify that, on the date set forth below, a true copy of the accompanying document was
served by electronic mail to the Counsel of Record for the one other party to the case:

Claudia Leis Bolgen, Esq.
Bolgen & Bolgen
110 Winn Street, Suite 204
Woburn, MA 01801
claudialb@bolgenlaw.com
Counsel of Record for the Petitioner, Jam es Anthony Martin

~~

Anna E. Itumeisky
Counsel of Record/ or the Respondent,
the Commonwealth of Massachusetts

Dated: November 13, 2020

